           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                Date:    September 21, 2009
           Single Audit on the City of Phoenix, Arizona
           Report No. QC-2009-089
                                                                                 Reply    JA-20
                                                                                    To
  From:    Earl C. Hedges                                                      Attn Of:
           Program Director for Single Audit
    To:    Regional Administrator, FTA, Region IX
           Regional Administrator, FAA, Western-Pacific Region
           Division Administrator, FHWA, Arizona Division Office


           This report presents the results of our Quality Control Review (QCR) of a single
           audit performed by Clifton Gunderson, LLP on the City of Phoenix (the City) for
           the fiscal year ending June 30, 2008. During this period of time, the City received
           funds from five grant programs in the Department of Transportation (DOT).

                 DOT Operating           CFD        Program              FY 2008           Major   Direct
                 Administration           A            Name             Expenditures       Program Awar
                                          #                                                           d
               Federal Aviation          20.10   Airport Improvement     $21,298,444         Yes       Yes
            Administration (FAA)           6           Program
               Federal Highway           20.20   Highway Planning &      $9,145,553          Yes       No
           Administration (FHWA)           5     Construction Program
                Federal Transit          20.50    Capital Investment    $105,133,060         Yes       Yes
            Administration (FTA)           0       Grants Program
                Federal Transit          20.50     Formula Grants        $65,297,722         Yes       Yes
            Administration (FTA)           7           Program
           National Highway Traffic      20.60     Highway Traffic        $776,379            No       No
            Safety Administration         0-       Safety Programs
                  (NHTSA)                .604




           Clifton Gunderson rendered an unqualified (clean) opinion on the City’s financial
           statements and did not question any costs concerning DOT grant programs.
           However, the auditor identified a significant deficiency in internal control over
           compliance with the FHWA program--the City did not prepare the Schedule of
           Expenditures of Federal Awards on an accrual accounting basis.
                                                                                                      3

The purpose of our QCR was to determine: (1) the adequacy of the auditor’s
work; (2) whether the work complied with Generally Accepted Government
Auditing Standards, the Single Audit Act of 1984, as amended (Act), and Office of
Management and Budget (OMB) Circular A-133, “Audits of States, Local
Governments, and Non-Profit Organizations;” and (3) the extent to which we
could rely on the auditor’s work. 1

RESULTS

Based on our QCR, we determined that Clifton Gunderson’s work, as it related to
the DOT major programs identified above, generally met the requirements of
Generally Accepted Government Auditing Standards, the Act, and OMB Circular
A-133. We found nothing to indicate that Clifton Gunderson’s opinion on the
financial statements or reports on internal control and compliance were
inappropriate or unreliable.

However, during our review of Clifton Gunderson’s work, we identified audit
documentation deficiencies. Clifton Gunderson provided explanations and
additional documents in response to our concerns. Based on the information
provided, we determined that these documentation deficiencies did not affect
Clifton Gunderson’s overall audit results. However, to adequately support their
audit conclusions, these deficiencies should be corrected in future audits. The
deficiencies are related to the following areas:
1. Compliance Requirements Deemed Not Applicable to DOT Programs. The
   OMB Compliance Supplement prescribes 14 specific requirements that need to
   be tested, unless deemed not applicable to the grant program by the auditor.
   Clifton Gunderson’s audit workpapers did not provide convincing and
   supportive reason(s) why two compliance requirements for FTA, three
   compliance requirements for FAA, and two compliance requirements for
   FHWA were deemed not applicable.
2. Compliance Review and Testing of Major Program. Clifton Gunderson’s
   audit workpapers did not clearly explain, document, or sufficiently support the
   extent of its review and/or testing performed on the following compliance
   requirements:

       Requirement F (Equipment & Real Property Management): Clifton
        Gunderson’s audit documentation did not provide evidence that they
        sampled equipment acquired with DOT funds to ensure it was appropriately
        safeguarded and maintained. In addition, the audit documentation did not
1
    The Department of Housing and Urban Development (HUD) is the cognizant Federal single audit agency
    for the City, but does not plan to perform a quality control review of Clifton Gunderson’s work. HUD
    gave us permission to review DOT programs. Our review was limited to the DOT major programs
    identified by Clifton Gunderson.
                                                                                                      3

          specify whether differences existed between physical inventory counts and
          equipment records.

       Requirement G (Matching): Clifton Gunderson’s audit documentation did
        not explain the work performed on the source(s) of the City’s matching
        contribution and if the funds were from an allowable source.
       Requirement L (Reporting): Clifton Gunderson’s audit documentation did
        not explain the work performed on Disadvantaged Business Enterprise
        (DBE) reports submitted to FTA.
       Requirement M (Subrecipient Monitoring): Clifton Gunderson’s audit
        documentation did not explain the work performed on the City’s
        monitoring of its subrecipients.

3. Control Deficiencies Not Considered as Material Weaknesses. Clifton
   Gunderson’s audit workpapers did not include an explanation of why the three
   control deficiencies (2008-1, 2008-2, and 2008-3) identified during the audit
   were not considered material weaknesses.
During our exit conference, we recommended Clifton Gunderson correct these
issues in its single audit of the City for the fiscal year ending June 30, 2009. 2
Clifton Gunderson concurred with our recommendation and agreed to provide its
FY 2009 audit workpapers for our follow-up review.
We appreciate the courtesies and cooperation of Clifton Gunderson, LLP and City
of Phoenix representatives during this QCR. If you have any questions concerning
this report, please call me at (410) 962-1729 or John R. Sysak, DOT National
Single Audit Coordinator, at (410) 962-2630.
                                                    #
cc: Regional Administrator, NHTSA, Region IX
    Audit Liaison, FTA, TBP-11
    Audit Liaison, FHWA, HAIM-11
    Audit Liaison, FAA, ABU-100
    Audit Liaison, FAA, Western-Pacific Region, AWP-620.1
    Audit Liaison, NHTSA, NPO-310
    Audit Liaison, OST, M-1
    Deputy Finance Director, City of Phoenix




2
    The single audit report issued by Clifton Gunderson is available upon request through the Freedom of
    Information Act process on http://www.oig.dot.gov/foia.jsp.
